N o. _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _
______________________________________________________________________________
I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S
L A D A W N D O U GL AS
P etiti o n e r
v.
K O N D A U R C A PI T A L C O R P O R A T I O N
R e s p o n d e nt
______________________________________________________________________________
O N P E TI T I O N F O R W R I T O F C E R T I O R A R I T O T H E M I C H I G A N S U P R E M E
C O U R T
______________________________________________________________________________
P E TI TI O N F O R W RI T O F C E R TI O R A RI

C r y st al N. H o p ki n s
P. O. B o x 2 1 4 1
R o y al O a k, M I 4 8 0 6 8
( 2 4 8) 3 4 5-3 8 3 3
c h o p ki n sj d @ o utl o o k. c o m
C o u n s el of R e c o r d f o r P etiti o n e r
L a D a w n D o u gl a s

ii
Q U E S TI O N S P R E S E N T E D
W h et h e r Mi c hi g a n ’ s fo r e cl o s u r e b y a d v e rti s e m e nt s t at ut e, M C L § 6 0 0. 3 2 0 1 et
s e q ., a s a p pli e d a n d e nf o r c e d i n t h e c o u rt s b el o w, c o n stit ut e s st at e a cti o n a g ai n st
P etiti o n e r i n vi ol ati o n of P etiti o n e r’ s ri g ht s u n d e r t h e 5 t h a n d 1 4 t h A m e n d m e nt s t o t h e
U nit e d St at e s C o n stit uti o n ?

iii
P A R TI E S T O T H E P R O C E E DI N G
P etiti o n e r, w h o w a s D ef e n d a nt -A p p ell a nt b el o w, i s: L a D a w n D o u gl a s , w h o w a s
n o t n a m e d s p e cifi c all y a s a p a rt y i n t h e t ri al c o u rt b ut i n cl u d e d a s a d ef e n d a nt a s a n
o c c u p a nt of t h e P r o p e rt y .
R e s p o n d e nt s,

w ho

w er e

Pl ai ntiff s -A p p ell e e s b el o w, a r e:

K o n d a ur

C a pit al

C o r p o r ati o n (“K o n d a u r ”).
P R O C E E DI N G S B E L O W
T h e o pi ni o n a n d j u d g m e nt of t h e 1 7 t h J u di ci al Di st ri ct C o u rt of t h e St at e of
Mi c hi g a n w a s i s s u e d o n

J u n e 2 8, 2 0 1 7 , t h e c a s e n u m b e r i s 1 7 -7 6 3 4 8 -L T . T h e 1 7

th

J u di ci al Di st ri ct C o u rt’ s o r d e r i s att a c h e d a s A p p e n di x A a n d t h e c o u rt’ s o pi ni o n i s
att a c h e d at A p p e n di x B . T h e o n e -p a g e or d e r of t h e 3 r d J u di ci al Ci r c uit C o u rt of t h e
St at e of Mi c hi g a n di s mi s si n g P etiti o n e r’ s a p p e al of ri g ht w a s i s s u e d o n J a n u a r y 1 5,
2 0 1 9, t h e c a s e n u m b e r i s 1 7 -0 1 0 4 0 3 -A V a n d t h e o r d e r i s att a c h e d at A p p e n di x C . T h e
Mi c hi g a n C o u rt of A p p e al s o n e -p a g e o r d e r d e n yi n g r e vi e w w a s i s s u e d o n A p ril 8,
2 0 1 9 , t h e c a s e n u m b e r i s 3 4 7 5 9 6 a n d t h e o r d e r i s att a c h e d a s A p p e n di x D . T h e
Mi c hi g a n S u p r e m e C o u rt’ s o n e -p a g e o r d e r d e n yi n g r e vi e w, w hi c h i s r e p o rt e d at 5 0 5
Mi c h. 9 4 1, 9 3 6 N. W. 2 d 2 9 5( M e m), w a s i s s u e d o n D e c e m b e r 2 3, 2 0 1 9, t h e c a s e n u m b e r
i s 1 5 9 6 3 2 a n d t h e o r d e r i s att a c h e d at A p p e n di x E .

iv
T A BL E OF C O NT E NTS
Q U E S T I O N S P R E S E N T E D .......................................................................................... ii
P A R T I E S T O T H E P R O C E E D I N G ............................................................................. iii
P R O C E E D I N G S B E L O W ............................................................................................. iii
T A B L E O F A U T H O RI T I E S .......................................................................................... v
J U R I S D I C TI O N ............................................................................................................. 1
C O N S T I T U T I O N A L A N D S T A T U T O R Y R U L E S I N V O L V E D .................................. 1
S T A T E M E N T O F T H E C A S E ....................................................................................... 2
A.
B.
C.
1.
2.
3.
4.

BA C K G R O U N D ........................................................................................................ 2
FA C T S A N D P R O C E D U R A L H I S T O R Y ........................................................................ 5
HO W T H E Q U E S T I O N S W E R E R A I S E D A N D D E C I D E D B E L O W . .................................. 9
T h e 1 7 t h J u di ci al Di st ri ct C o u rt f o r t h e st at e of Mi c hi g a n. ............................ 9
T h e 3 r d J u di ci al Ci r c uit C o u rt of t h e St at e of Mi c hi g a n ............................... 1 1
T h e C o u rt of A p p e al s f o r t h e St at e of Mi c hi g a n ............................................ 1 2
T h e Mi c hi g a n S u p r e m e C o u rt ........................................................................ 1 3

R E A S O N S F O R G R A N T I N G T H E P E TI T I O N .......................................................... 1 4
A.
PR
B.

TH

U NI T E D S T A T E S S U P R E M E C O U R T
N T . ............................................................................................................... 1 4
Q U E S T I O N I S O F S I G N I F I C A N T N A T I O N A L I M P O R T A N C E . .............................. 2 2

E D E CI SI O N B E L O W I S I N C O N SI S T E N T WI T H

E C E D E

TH I S

C O N C L U S I O N A N D P R A Y E R F O R R E L I E F ........................................................... 2 4

v
T A B L E O F A U T H O RI TI E S
C as es
A m e ri c a n S u r et y C o. v. B al d wi n , 2 8 7 U. S. 1 5 6, 1 6 8;
5 3 S. Ct. 9 8, 1 0 2; 7 7 L. E d. 2 3 1 ( 1 9 3 2) ................................................................. 1 4, 1 6
B o d di e v. C o n n e cti c ut , 4 0 1 U. S. 3 7 1, 3 7 9; 9 1 S. Ct. 7 8 0, 7 8 6 .............................. 1 4, 1 6
B r a d y v. U nit e d St at e s, 3 9 7 U. S. 7 4 2, 7 4 8; 9 0 S. Ct. 1 4 6 3,
1 4 6 8; 2 5 L. E d. 2 d 7 4 7 ( 1 9 7 0) .................................................................................... 1 8
B r y a n v. J P M o r g a n C h a s e B a n k,
3 0 4 Mi c h. A p p. 7 0 8, 7 1 5; 8 4 8 N. W. 2 d 4 8 2 ( 2 0 1 4) .................................................... 1 5
C r a m e r v. M et r o p olit a n S a vi n g s a n d L o a n A s s o ci ati o n ,
4 0 1 Mi c h. 2 5 2, 2 5 5 ( 1 9 7 7 ) ...................................................................................... 3, 4
D. H. O v e r m e y e r C o. I n c., of O hi o v. F ri c k C o .,
4 0 5 U. S. 1 7 4, 9 2 S. Ct. 7 7 5, 3 1 L. E d. 2 d. 1 2 4 ( 1 9 7 2) .......................................... 1 4, 1 8
D o w v. St at e of Mi c hi g a n, 3 9 6 Mi c h. 1 9 2 ( 1 9 7 6) ........................................................ 1 9
Elli ott v. S a c k ett , 1 0 8 U. S. 1 3 2, 1 3 9; 2 S. Ct. 3 7 5, 3 7 9................................................ 1 5
E q uit a bl e T r u st C o . v. B a rl u m R e alt y C o ., 2 9 4 Mi c h. 1 6 7 ( 1 9 4 0) ................................ 3
F a y v. N oi a , 3 7 2 U. S. 3 9 1, 4 3 9; 8 3 S. Ct. 8 2 2, 8 4 9 ...................................................... 1 8
F u e nt e s v. S h e vi n , 4 0 7 U. S. 6 7, 9 2; 9 2 S. Ct. 1 9 8 3; 3 2 L. E d. 2 d 5 5 6 ( 1 9 7 2) .......... 1 4, 1 6
G a ntl y’ s L e s s e e v. E wi n g , 4 4 U. S. 7 0 7, 7 1 4; 1 1 L. E d 7 9 4 ........................................... 2 1
J o h n s o n v. Z e r b st , 3 0 4 U. S. 4 5 8, 46 4; 5 8 S. Ct. 1 0 1 9; 1 0 2 3; 8 2 L. E d. 1 4 6 1 ( 1 9 3 8) .... 1 8
M c K a y v. M cl n n e s , 2 7 9 U. S. 8 2 0, 4 9 S. Ct. 3 4 4, 7 3 L. E d. 9 7 5 .................................... 1 9
N ati o n al Ai r p o rt C o r p. v. W a y n e B a n k, 7 3 Mi c h. A p p. 5 7 2, 5 7 6 ( 1 9 7 7) .................... 1 3

vi

N ati o n al E q ui p m e nt R e nt al, Lt d. v. S z u k h e nt,
3 7 5 U. S. 3 1 1; 8 4 S. Ct. 4 1 1; 1 1 L. E d. 2 d 3 5 4 ( 1 9 6 4) ................................................. 1 8
O hi o B ell T el. C o. v. P u bli c Utiliti e s C o m m’ n,
3 0 1 U. S. 2 9 2, 3 0 7; 5 7 S. Ct. 7 2 4, 7 3 1; 8 1 L. E d. 1 0 9 3 ( 1 9 3 7) .................................... 1 8
S h e p h e r d v. M a y , 1 1 5 U. S. 5 0 5, 5 1 0 ( 1 8 8 5) ................................................................ 1 5
S hill a b e r v. R o bi n s o n , 9 7 U. S. 6 8, 7 8; 1 8 7 7 W L 1 8 5 9 5 .............................................. 2 1
S n ai d a c h v. F a mil y Fi n a n c e C o r p. , 3 9 5 U. S. 3 3 7 ( 1 9 6 9) ..................................... 1 9, 2 1
S n ai d a c h v. F a mil y Fi n a n c e C o r p., 3 9 5 U. S. 3 3 7, 3 4 3; 8 9 S. Ct. 1 8 2 0, 1 8 2 3 ...... 1 4, 1 7
St at ut e s
12
28
M C
M C
M C

C F R § 1 0 2 4. 3 1 ......................................................................................................... 2 3
U. S. C. § 2 4 0 3( b) ...................................................................................................... 1 4
L § 6 0 0. 2 9 3 2 ............................................................................................................. 2
L § 6 0 0. 3 1 0 1 ............................................................................................................. 3
L § 6 0 0. 3 2 0 1 ......................................................................................... ii, 3, 9, 1 0, 1 2

C o n s ti t u ti o n al P r o vi si o n s
U. S. C O N S T. a m e n d. X I V ................................................................... ii, 1, 5, 1 1, 1 4, 2 2
U. S. C O N S T. a m e n d. V ....................................................................... ii, 1, 5, 1 1, 1 4, 2 2

1

P etiti o n e r, L a D a w n D o u gl a s , p etiti o n s t h e C o u rt f o r a w rit of c e rti o r a ri t o
r e vi e w t h e j u d g e m e nt of t h e Mi c hi g a n S u p r e m e C o u rt .
J U RI S DI C TI O N
T h e j u ri s di cti o n of t hi s C o u rt i s i n v o k e d u n d e r 2 8 U. S. C. § 1 2 5 7( a). 2 8 U. S. C.
§2403

m a y a p pl y. T h e

Mi c hi g a n S u p r e m e C o u rt di d n ot c e rtif y t o t h e st at e of

Mi c hi g a n Att o r n e y G e n e r al t h e f a ct t h at t h e c o n stit uti o n alit y of a st at ut e of t h e st at e
of Mi c hi g a n w a s d r a w n i nt o q u e sti o n. T h e

Mi c hi g a n S u p r e m e C o u rt o r d e r d e n yi n g

p eti ti o n e r’ s ti m el y p etiti o n f o r di s c r eti o n a r y r e vi e w w a s fil e d o n D e c e m b e r 2 3, 2 0 1 9.
T hi s p etiti o n i s ti m el y fil e d wit hi n 1 5 0 -d a y s of t h e Mi c hi g a n S u p r e m e C o u rt’ s d e ni al
of di s c r eti o n a r y r e vi e w, u n d e r R ul e s 1 3. 1 a n d 2 9. 2 of t hi s C o u rt a n d t h i s C o u rt’ s
M a r c h 1 9, 2 0 2 0 O r d e r.
C O N S TI T U TI O N A L A N D S T A T U T O R Y R U L E S I N V O L V E D
U nit e d St at e s C o n stit uti o n , A m e n d m e nt 1 4 p r o vi d e s:
All p e r s o n s b o r n o r n at u r ali z e d i n t h e U nit e d St at e s, a n d
s u bj e ct t o t h e j u ri s di cti o n t h e r e of, a r e citi z e n s of t h e U nit e d
St at e s a n d of t h e st at e w h e r ei n t h e y r e si d e . N o s t a t e s h all
m a k e o r e nf o r c e a n y l a w w hi c h s h all a b ri d g e t h e
p ri vil e g e s o r i m m u ni ti e s of ci ti z e n s of t h e U ni t e d
S t a t e s; n o r s h all a n y s t a t e d e p ri v e a n y p e r s o n of lif e,
li b e r t y, o r p r o p e r t y, wi t h o u t d u e p r o c e s s of l a w ; n o r
d e n y t o a n y p e r s o n wit hi n it s j u ri s di cti o n t h e e q u al
p r ot e cti o n of l a w s. [ E m p h a si s a d d e d]
U nit e d St at e s C o n stit uti o n , A m e n d m e nt 5 p r o vi d e s:
N o p e r s o n s h all b e h el d t o a n s w e r f o r a c a pit al, o r ot h e r wi s e
i nf a m o u s c ri m e, u nl e s s o n a p r e s e nt m e nt o r i n di ct m e nt of
a g r a n d j u r y, e x c e pt i n c a s e s a ri si n g i n t h e l a n d o r n a v al
f o r c e s, o r i n t h e militi a, w h e n i n a ct u al s e r vi c e i n ti m e of
w a r o r p u bli c d a n g e r; n o r s h all a n y p e r s o n b e s u bj e ct f o r

2

t h e s a m e off e n s e t o b e t wi c e p ut i n j e o p a r d y of lif e o r li m b;
n o r s h all b e c o m p ell e d i n a n y c ri mi n al c a s e t o b e a wit n e s s
a g ai n st hi m s elf, n o r b e d e p ri v e d of lif e, li b e r t y, o r
p r o p e r t y, wi t h o u t d u e p r o c e s s of l a w; n o r s h all
p ri v a t e p r o p e r t y b e t a k e n f o r p u bli c u s e, wi t h o u t
j u s t c o m p e n s a ti o n. [ e m p h a si s a d d e d]
M C L § 6 0 0. 3 2 0 1 p r o vi d e s:
E v e r y m o rt g a g e of r e al e st at e, w hi c h c o nt ai n s a p o w e r of
s al e, u p o n d ef a ult b ei n g m a d e i n a n y c o n diti o n of s u c h
m o rt g a g e, m a y b e f o r e cl o s e d b y a d v e rti s e m e nt, i n t h e c a s e s
a n d i n t h e m a n n e r s p e cifi e d i n t hi s c h a pt e r . H o w e v e r, t h e
p r o c e d u r e s s et f o rt h i n t hi s c h a pt e r s h all n ot a p pl y t o
m o rt g a g e s of r e al e st at e h el d b y t h e Mi c hi g a n st at e
h o u si n g d e v el o p m e nt a ut h o rit y.
C F P B B ull eti n 2 0 1 3 -1 2 ( O ct o b e r 1 5, 2 0 1 3) p r o vi d e s, i n p e rti n e nt p a rt:
St a rti n g o n J a n u a r y 1 0, 2 0 1 4, a s e r vi c e r m u st h a v e p oli ci e s
a n d p r o c e d u r e s r e a s o n a bl y d e si g n e d t o e n s u r e … t h e
s e r vi c e r p r o m ptl y i d e ntifi e s a n d f a cilit at e s c o m m u ni c ati o n
wit h a s u c c e s s o r i n i nt e r e st.” C F P B B ull eti n 2 0 1 3 -1 2
( O ct o b e r 1 5, 2 0 1 3), 2. “ A s u c c e s s o r i n i nt e r e st i s t h e s p o u s e,
c hil d, o r h ei r of a d e c e a s e d b o r r o w e r o r ot h e r p a rt y wit h a n
i nt e r e st i n t h e p r o p e rt y. C F P B B ull eti n 2 0 1 3 -1 2 ( O ct o b e r
1 5, 2 0 1 3), n. 7.
S T A T E M E N T O F T H E C AS E
A. B a c k g r o u n d
T hi s c a s e p r e s e nt s a q u e sti o n c o n c e r ni n g t h e r el ati o n s hi p b et w e e n t h e st at e of
Mi c hi g a n’ s f o r e cl o s u r e b y a d v e rti s e m e nt st at ut e a n d
Cl a u s e s of t h e

U nit e d

St at e s

C o n stit uti o n.

t h e D u e P r o c e s s a n d T a ki n g s

Mi c hi g a n c o m m o n l a w p e r mit s a

m o rt g a g e e t o f o r e cl o s e r e si d e nti al r e al p r o p e rt y b y n o nj u di ci al f o r e cl o s u r e, al s o
k no w n

a s f o r e cl o s u r e

by

a d v e rti s e m e nt, if t h e

c o nt r a ct u all y a g r e e t h at t h e p r o p e rt y

m o rt g a g e e

and

m o rt g a g o r( s)

m a y b e f o r e cl o s e d b y n o nj u di ci al f o r e cl o s u r e

3

s al e. E q uit a bl e T r u st C o . v. B a rl u m R e alt y C o ., 2 9 4

Mi c h. 1 6 7 ( 1 9 4 0) . I n 1 9 6 1,

Mi c hi g a n’ s l e gi sl at u r e e n a ct e d t h e R e vi s e d J u di c at u r e A ct of 1 9 6 1, A ct 2 3 6 of 1 9 6 1
(t h e “ A ct”). C h a pt e r s 3 1 a n d 3 2 of t h e A ct c r e at e d t w o s e p a r at e f o r e cl o s u r e p r o c e s s e s.
C h a pt e r 3 1 p r o vi d e s t h e p r o c e s s f o r j u di ci al f o r e cl o s u r e i n

M C L § 6 0 0. 3 1 0 1 et s e q .

C h a pt e r 3 2 p r o vi d e s t h e p r o c e s s f o r f o r e cl o s u r e b y a d v e rti s e m e nt i n M C L § 6 0 0. 3 2 0 1
et s e q . T h e st at e of

Mi c hi g a n c o difi e d

a d v e rti s e m e nt st at ut e i n

Mi c hi g a n

t h e c o m m o n l a w i n it s f o r e cl o s u r e b y

C o difi e d

L a w s (“ M C L”) § 6 0 0. 3 2 0 1 et s e q .

Mi c hi g a n’ s f o r e cl o s u r e b y a d v e rti s e m e nt st at ut e (t h e “ St at ut e”),

M C L § 6 0 0. 3 2 0 1

et

s e q ., d o e s n ot g r a nt t h e ri g ht t o f o r e cl o s e a p r o p e rt y b y n o nj u di ci al f o r e cl o s u r e . T h e
St at ut e s et s o ut t h e r e q ui r e m e nt s a n d c o n st r ai nt s of n o nj u di ci al f o r e cl o s u r e s al e s.
N ati o n al Ai r p o rt C o r p ., 7 3 Mi c h. A p p. 5 7 2 ; 2 5 2 N. W. 2 d 5 1 9 ( 1 9 7 7). “[ I]t i s cl e a r t h at
t h e st at ut e u n d e r att a c k h e r e di d n ot c r e at e t h e p o w e r of s al e f o r e cl o s u r e. I n st e a d,
t h e st at e, b y e n a cti n g t hi s st at ut e, a ct e d t o r e g ul at e a n d st a n d a r di z e a r e c o g ni z e d
p r a cti c e.” N ati o n al Ai r p o rt C o r p ., 7 3 Mi c h. A p p. 5 7 2 , 5 7 7 ; 2 5 2 N. W. 2 d 5 1 9 ( 1 9 7 7).
T h e c o n stit uti o n alit y of M C L § 6 0 0. 3 2 0 1 w a s c h all e n g e d i n 1 9 7 7 i n t h e c a s e of C r a m e r
v. M et r o p olit a n S a vi n g s a n d L o a n A s s o ci ati o n . C r a m e r st a n d s f o r t h e p r o p o siti o n t h at
“ a m o rt g a g e e w h o e x e r ci s e s a f o r e cl o s u r e [ b y a d v e rti s e m e nt] o pti o n i s r el yi n g o n a
c o nt r a ct r e m e d y, n ot o n a ri g ht c r e at e d b y t h e st at ut e.” C r a m e r v. M et r o p olit a n S a v .
a n d L o a n A s s ’n , 4 0 1 Mi c h. 2 5 2, 2 5 5 ( 1 9 7 7).
O u r U nit e d St at e s C o n stit uti o n p r ot e ct s citi z e n s’ d u e p r o c e s s ri g ht s a g ai n st a
st at e’ s d e p ri v ati o n of p r o p e rt y wit h o ut d u e p r o c e s s of l a w. Mi c hi g a n’ s f o r e cl o s u r e b y
a d v e rti s e m e nt st at ut e h a s b e e n u p h el d a s c o n stit uti o n al s ol el y o n t h e b a si s t h at t h e

4

p a rti e s t o t h e m o rt g a g e, n ot t h e st at e of

Mi c hi g a n, g r a nt t h e ri g ht t o f o r e cl o s e t h e

m o rt g a g e n o nj u di ci all y. C r a m e r v. M et r o p olit a n S a vi n g s a n d L o a n A s s o ci ati o n , 4 0 1
Mi c h. 2 5 2, 2 5 8

N. W. 2 d 2 0 ( 1 9 7 7).

N ot a bl y,

Mi c hi g a n’ s L e gi sl at u r e c h o s e t o cit e

C r a m e r wit h t h e t e xt of t h e st at ut e. M C L § 6 0 0. 3 2 0 1.
R e s p o n d e nt,

K o n d a ur ,

p r o s e c ut e d

a

n o nj u di ci al

f o r e cl o s u r e

a g ai n st

P etiti o n e r’ s P r o p e rt y a n d s u b s e q u e ntl y c o m m e n c e d a n a cti o n i n t h e 1 7 t h J u di ci al
Di st ri ct C o u rt of t h e St at e of

Mi c hi g a n (t h e “ T ri al C o u rt”), t o s u m m a ril y e vi ct t h e

m o rt g a g e e, Cliff o r d D o u gl a s J r. , a n d all o c c u p a nt s f r o m t h e P r o p e rt y . P etiti o n e r, t h e
s ol e titl e o w n e r a n d s ol e o c c u p a nt of t h e P r o p e rt y, a p p e a r e d i n K o n d a u r’ s s u m m a r y
p r o c e e di n g a s a n o c c u p a nt of t h e P r o p e rt y.

P etiti o n e r di d n ot c o nt e st t h e v ali dit y of

K o n d a u r’ s n o nj u di ci al f o r e cl o s u r e s al e a s t o Cliff o r d D o u gl a s J r.’ s p u r p o rt e d i nt e r e st
i n t h e p r o p e rt y. 1

P etiti o n e r o nl y c h all e n g e d t h e v ali dit y of K o n d a u r’ s n o nj u di ci al

f o r e cl o s u r e a s t o P etiti o n e r’ s titl e i nt e r e st i n t h e P r o p e rt y . P etiti o n e r a r g u e d t h at
K o n d a u r’ s 2 0 1 6 n o nj u di ci al s h e riff’ s s al e of P etiti o n e r’ s titl e i nt e r e st i n t h e P r o p e rt y
vi ol at e d P etiti o n e r’ s d u e p r o c e s s ri g ht s b e c a u s e P etiti o n e r w a s n e v e r a p a rt y t o t h e
m o rt g a g e a n d di d n ot c o nt r a ct u all y g r a nt K o n d a u r t h e p o w e r t o s al e t h e P r o p e rt y
n o nj u di ci all y. I n P etiti o n e r’ s b ri ef i n o p p o si ti o n t o K o n d a u r’ s m oti o n f o r a j u d g m e nt
of p o s s e s si o n, P etiti o n e r pl e a d e d,

1

Cliff o r d D o u gl a s, J r. n o l o n g e r o w e d a n i nt e r e st i n t h e S u bj e ct P r o p e rt y at t h e ti m e K o n d a u r i niti at e d
it s n o nj u di ci al f o r e cl o s u r e s al e o n A u g u st 2 5, 2 0 1 6 b e c a u s e a C o u rt of c o m p et e nt j u ri s di cti o n
e xti n g ui s h e d Cliff o r d D o u gl a s, J r.’ s i nt e r e st i n t h e S u bj e c t P r o p e rt y b y a Di v o r c e D e c r e e d at e d A u g u st
2, 2 0 1 1. A p p e n di x H.

5

K o n d a u r’ s
A u g u st
2 5,
2016
S h e riff’ s
Dee d
u n c o n stit uti o n all y t e r mi n at e s
D ef e n d a nt ’ s
p r o p e rt y
i nt e r e st i n t h e s u bj e ct p r o p e rt y wit h o ut d u e p r o c e s s of l a w.
D ef e n d a nt s’ B ri ef i n O p p o siti o n t o K o n d a u r’ s M oti o n f o r
P o s s e s si o n at 1 1.
P etiti o n e r p r a y e d t h at t h e 1 7 t h J u di ci al Di st ri ct C o u rt of t h e St at e of

Mi c hi g a n

di s mi s s K o n d a u r’ s e vi cti o n p r o c e e di n g s a s t o P etiti o n e r. D ef e n d a nt s’ A n s w e r a n d
Affi r m ati v e D ef e n s e s, 7 . T h e 1 7 J u di ci al C o u rt f o r t h e St at e of

Mi c hi g a n di d n ot

p r o vi d e a w ritt e n o pi ni o n b ut p r o vi d e d a n o r al o pi ni o n . T h e T ri al C o u rt’ s o pi ni o n di d
n ot a c k n o wl e d g e o r a d d r e s s P etiti o n e r’ s d u e p r o c e s s a r g u m e nt a n d s u m m a ril y f o u n d
t h at K o n d a u r

w a s l e g all y

a ut h o ri z e d t o i n v o k e

a d v e rti s e m e nt st at ut e a g ai n st

Mi c hi g a n’ s f o r e cl o s u r e

P etiti o n e r’ s o w n e r s hi p i nt e r e st i n t h e

by

P r o p e rt y .

S u m m a r y P r o c e e di n g H e a ri n g J u n e 2 8, 2 0 1 7 T r. 1 1: 3 - 5.
T h e 1 7 t h J u di ci al Di st ri ct C o u rt O pi ni o n a n d O r d e r a n d s u b s e q u e nt
a p p ell at e c o u rt s’ d e ci si o n s affi r mi n g t h at o r d e r c o nfli ct

Mi c hi g a n

wit h t h e 5 t h a n d 1 4 t h

A m e n d m e nt s of t h e U nit e d St at e s C o n stit uti o n a n d U nit e d St at e s p r e c e d e nt w hi c h
p r o s c ri b e s

s ei z u r e s of s u b st a nti al p r o p e rt y

i nt e r e st

wit h o ut

n oti c e

and

an

o p p o rt u nit y t o b e h e a r d b ef o r e t h e d e p ri v ati o n .
B. F a c t s a n d P r o c e d u r al Hi s t o r y
P etiti o n e r i s a citi z e n of t h e U nit e d
w h o c u r r e ntl y r e si d e s i n

W e stl a n d,

St at e s a n d a citi z e n of t h e st at e of Mi c hi g a n

Mi c hi g a n . P etiti o n e r’ s t h e n h u s b a n d, Cliff o r d

D o u gl a s, J r. , p u r c h a s e d r e si d e nti al r e al p r o p e rt y c o m m o nl y k n o w n a s 9 5 6 7 L e n o r e,
R e df o r d , Mi c hi g a n 4 8 2 3 9 (t h e “ P r o p e rt y”) on o r a b o ut J a n u a r y 9, 2 0 0 9 . T o p u r c h a s e

6

t h e P r o p e rt y, Cliff o r d D o u gl a s, J r. o bt ai n e d a

m o rt g a g e l o a n f r o m M V B

c o r p o r ati o n , an O hi o c o r p o r ati o n w h o s e r e gi st e r e d a d d r e s s i n
N o rt h w e st e r n

Hi g h w a y, S uit e 2 0 0, S o ut hfi el d,

Mi c hi g a n 4 8 0 7 5

M o rt g a g e

Mi c hi g a n i s 2 4 4 0 0
a c c o r di n g t o t h e

m o rt g a g e r e c o r d e d i n t h e W a y n e C o u nt y R e gi st e r of D e e d s at Li b e r 4 7 9 0 5 , P a g e 4 1 7 4 2 3 (t h e “ M o rt g a g e”). Cliff o r d D o u gl a s, J r.’ s M o rt g a g e w a s s e c u r e d b y t h e P r o p e rt y .
P etiti o n e r a n d Cliff o r d D o u gl a s, J r. r e si d e d i n t h e P r o p e rt y a s t h ei r p ri m a r y r e si d e n c e
u ntil 2 0 1 1 u ntil P etiti o n e r a n d Cliff o r d D o u gl a s J r. w e r e di v o r c e d b y

a D ef a ult

J u d g m e nt of Di v o r c e (t h e “ Di v o r c e D e c r e e”) d at e d A u g u st 2, 2 0 1 1 . T h e Di v o r c e D e c r e e
a w a r d e d t h e P r o p e rt y t o P etiti o n e r. T h e t r a n sf e r w a s t o b e eff e ct u at e d b y r e c o r di n g
t h e Di v o r c e D e c r e e i n t h e W a y n e C o u nt y R e gi st e r of D e e d s i n t h e st at e of Mi c hi g a n.
T h e Di v o r c e D e c r e e st at e s, i n p e rti n e nt p a rt,
T h e r e al e st at e l o c at e d at: 9 5 6 7 L e n o r e St r e et, R e df o r d, Mi c hi g a n a n d
d e s c ri b e d a s f oll o w s: L ot 5 0 8 D u n ni n g P a r k S u b T 1 S R 1 0 E L 5 5 P 2 7
W C R [ s] h all b e a w a r d e d t o Pl ai ntiff [P etiti o n e r ] w h o s h all t r a n sf e r t h e
titl e of s ai d p r o p e rt y b y r e c o r di n g t h e J u d g m e nt of Di v o r c e wit h t h e
W a y n e C o u nt y R e gi st e r of D e e d s offi c e .2
P etiti o n e r r e c o r d e d t h e Di v o r c e D e c r e e i n t h e

W a y n e C o u nt y R e gi st e r of D e e d s o n

S e pt e m b e r 4, 2 0 1 2, t h e r e b y, eff e ct u ati n g t h e o r d e r of Mi c hi g a n’ s 3 r d J u di ci al Ci r c uit
C o u rt a n d t r a n sf e r ri n g titl e o w n e r s hi p of t h e P r o p e rt y f r o m Cliff o r d D o u gl a s, J r. t o
P etiti o n e r. T h e Di v o r c e D e c r e e i s r e c o r d e d i n t h e W a y n e C o u nt y R e gi st e r of D e e d s at
Li b e r 5 0 0 7 7 P a g e 3 2 6 .

Alt h o u g h t h e P r o p e rt y w a s t r a n sf e r r e d t o P etiti o n e r t h r o u g h t h e r e c o r di n g of t h e Di v o r c e D e c r e e, t h e
Di v o r c e D e c r e e w a s sil e nt r e g a r di n g Cliff o r d D o u gl a s J r.’ s m o rt g a g e o n t h e P r o p e rt y. S e e A p p e n di x J.

2

7

T he

M o rt g a g e w a s p u r p o rt e dl y t r a n sf e r r e d t o K o n d a u r b y a n A s si g n m e nt of

M o rt g a g e d at e d S e pt e m b e r 1 2, 2 0 1 2 a n d r e c o r d e d i n t h e W a y n e C o u nt y

R e gi st e r of

D e e d s at Li b e r 5 0 1 2 9, P a g e 2 3 2 o n S e pt e m b e r 1 7, 2 0 1 2 . K o n d a u r i s a c o r p o r ati o n
w h o s e h e a d q u a rt e r s i s l o c at e d at 3 3 3 S. A nit a D r., S uit e 4 0 0, O r a n g e C A 9 2 8 6 8.
K o n d a u r i s a “s p e ci alt y l o a n s e r vi c e r a n d r e si d e nti al a s s et m a n a g e r ” 3 t h at m ai nt ai n s
a br a nc h i n

Mi c hi g a n at 3 9 3 0 3 C o u nt r y Cl u b D ri v e, s uit e A -1, F a r mi n gt o n Hill s,

Mi c hi g a n 4 8 3 3 1.

P u r s u a nt t o t h e r e c o r d e d Di v o r c e D e c r e e, P etiti o n e r w a s t h e s ol e

titl e o w n e r of t h e P r o p e rt y w h e n

K o n d a ur

t o o k o w n e r s hi p of t h e

M o rt g a g e o n

S e pt e m b e r 1 2, 2 0 1 2 . A s s u c h, K o n d a u r h a d c o n st r u cti v e n oti c e of P etiti o n e r’ s t itl e
o w n e r s hi p of t h e P r o p e rt y t h r o u g h t h e r e c o r d e d Di v o r c e D e c r e e.
Alt h o u g h t h e P r o p e rt y w a s t r a n sf e r r e d t o P etiti o n e r t h r o u g h t h e r e c o r di n g of t h e
Di v o r c e

D e c r e e, t h e

Di v o r c e

m o rt g a g e o n t h e P r o p e rt y.

D ecr e e

w a s sil e nt r e g a r di n g Cliff o r d

D o u gl a s J r.’ s

P etiti o n e r b e g a n m a ki n g t h e m o rt g a g e p a y m e nt s aft e r t h e

di v o r c e. U p o n i nf o r m ati o n a n d b eli ef, P etiti o n e r d r o v e t o K o n d a u r ’ s b r a n c h l o c at e d at
3 9 2 5 5 C o u nt r y Cl u b D ri v e, F a r mi n gt o n Hill s, Mi c hi g a n 4 8 3 3 1 t o m a k e t h e m o nt hl y
m o rt g a g e p a y m e nt i n p e r s o n u ntil
p a y m e nt

P etiti o n e r w a s i nf o r m e d t h at t h e

i n c r e a s e d s o m eti m e i n 2 0 1 6 . F u rt h e r

m o rt g a g e

u p o n i nf o r m ati o n a n d

b eli ef,

P etiti o n e r i n q ui r e d a s t o w h y t h e m o rt g a g e p a y m e nt i n c r e a s e d, h o w e v e r, K o n d a u r
r ef u s e d t o s p e a k wit h P etiti o n e r wit h o ut t hi r d-p a rt y a ut h o ri z ati o n f r o m Cliff o r d
D o u gl a s, J r. , t h e s ol e

m o rt g a g o r. F u rt h e r u p o n i nf o r m ati o n a n d b eli ef, Cliff o r d

D o u gl a s J r. r ef u s e d t o g r a nt P etiti o n e r t h e r e q u e st e d t hi r d-p a rt y a ut h o ri z ati o n.

3

A v ail a bl e at k o n d a u r. c o m.

8

Alt h o u g h

t h e M o rt g a g e

w a s a 3 0 -y e a r fi x e d

m o rt g a g e, t h e p a y m e nt i n c r e a s e d

s u b st a nti all y p e r m o nt h u ntil P etiti o n e r c o ul d n o l o n g e r aff o r d t h e m o nt hl y m o rt g a g e
p a y m e nt s . K o n d a u r

all e g e d t h at t h e

m o rt g a g e

w as i n

d ef a ult a n d

n o nj u di ci al f o r e cl o s u r e a g ai n st Cliff o r d D o u gl a s, J r. 4 , t h e s ol e
P r o p e rt y.

In

2 0 1 6, P etiti o n e r,

by

i niti at e d

m o rt g a g o r, a n d t h e

a n d t h r o u g h c o u n s el , c o nt a ct e d

K o n d a u r’ s

f o r e cl o s u r e att o r n e y s t o o bt ai n i nf o r m ati o n a b o ut t h e all e g e d d ef a ult, t o fi n d o ut w h y
t h e m o rt g a g e p a y m e nt s i n c r e a s e d, t o d et e r mi n e w h et h e r t h e i n c r e a s e i n t h e p a y m e nt
w as a

mi st a k e a n d t o c u r e a n y all e g e d d ef a ul t. P etiti o n e r i nt e n d ed t o w o r k wit h

K o n d a u r, b y a n d t h r o u g h c o u n s el, t o eit h e r c o r r e ct a n y
a c c o u nt o r c u r e t h e all e g e d d ef a ult.

mi st a k e i n t h e

m o rt g a g e

H o w e v e r, K o n d a u r’ s f o r e cl o s u r e c o u n s el al s o

r ef u s e d t o s p e a k t o P etiti o n e r’ s c o u n s el wit h o ut t hi r d -p a rt y a ut h o ri z ati o n f r o m M r.
Cliff o r d D o u gl a s, J r. e v e n t h o u g h P etiti o n e r w a s t h e s ol e titl e o w n e r of t h e P r o p e rt y.
T h e r e q u e st f o r t h e t hi r d -p a rt y a ut h o ri z ati o n i n di c at e s t h at

K o n d a u r a n d it s

f o r e cl o s u r e c o u n s el w e r e a w a r e t h at P etiti o n e r w a s n ot a p a rt y t o t h e M o rt g a g e .
T h e r ef o r e, K o n d a u r a n d it s f o r e cl o s u r e c o u n s el w e r e a w a r e t h at P etiti o n e r di d n ot
g r a nt t h e p o w e r t o s al e h e r titl e i nt e r e st i n t h e P r o p e rt y b y n o nj u di ci al f o r e cl o s u r e.
B ot h K o n d a u r a n d it s f o r e cl o s u r e c o u n s el w e r e al s o a w a r e t h at P etiti o n e r w a s t h e
s ol e titl e o w n e r of t h e P r o p e rt y.

T h e S h e riff’ s D e e d g r a nt e d t o K o n d a u r o n A u g u st 2 5, 2 0 1 6 st at e s, i n p e rti n e nt p a rt, C L I F F O R D
D O U G L A S J R., A M A R R I E D M A N, m a d e a c e rt ai n m o rt g a g e t o M V B M O R T G A G E C O R P O R A T I O N,
A N O H I O C O R P O R A T I O N ( h e r ei n aft e r c all e d t h e m o rt g a g e e), w hi c h w a s d ul y r e c o r d e d i n Li b e r
4 7 9 0 5, o n P a g e 4 1 7, a n d w a s a s si g n e d b y s ai d m o rt g a g e e t o K O N D A U R C A P I T A L C O R P O R A T I O N,
a s a s si g n e e, W a y n e C o u nt y R e c o r d s .

4

9

On

o r a b o ut J ul y 8, 2 0 1 6,

K o n d a u r c o m m e n c e d f o r e cl o s u r e b y a d v e rti s e m e nt

p r o c e e di n g s a s t o Cliff o r d D o u gl a s J r. a n d t h e P r o p e rt y. K o n d a u r di d n ot p r o vi d e
P etiti o n e r wit h n oti c e

5

of t h e n o nj u di ci al f o r e cl o s u r e o r a n o p p o rt u nit y t o b e h e a r d

p ri o r t o t h e n o nj u di ci al f o r e cl o s u r e. U p o n i nf o r m ati o n a n d b eli ef, P etiti o n e r l e a r n e d
of t h e f o r e cl o s u r e b y a d v e rti s e m e nt t h r o u g h a n ei g h b o r . O n A u g u st 2 5, 2 0 1 6, a
D e p ut y S h e riff i n a n d f o r W a y n e C o u nt y, Mi c hi g a n g r a nt e d K o n d a u r a S h e riff’ s D e e d
f o r P etiti o n e r’ s P r o p e rt y . T h e S h e riff’ s D e e d o nl y list s Cliff o r d D o u gl a s J r. a s t h e
m o rt g a g o r. T h e S h e riff’’ s D e e d f o r e cl o s e d t h e P r o p e rt y i n t h e a m o u nt of $ 5 1, 9 8 4. 5 9 .
C. H o w t h e Q u e s ti o n s w e r e R ai s e d a n d D e ci d e d B el o w.
1. T h e 1 7

th

J u di ci al Di s t ri c t C o u r t f o r t h e s t a t e of Mi c hi g a n.

I n M a r c h 2 0 1 7 , K o n d a u r fil e d a S u m m a r y E vi cti o n P r o c e e di n g a g ai n st Cliff o r d
D o u gl a s, J r. a n d all ot h e r o c c u p a nt s o f t h e P r o p e rt y . I n t h e s u m m a r y p r o c e e di n g,
R e s p o n d e nt c o r r e ctl y all e g e d t h at P etiti o n e r t o o k o w n e r s hi p of t h e P r o p e rt y t h r o u g h
t h e di v o r c e d e c r e e o r q uit cl ai m d e e d s u bj e ct t o t h e m o rt g a g e . S u m m a r y P r o c e e di n g
H e a ri n g J u n e 2 8, 2 0 1 9 T r. 4: 1 9 -2 4. R e s p o n d e nt i n c o r r e ctl y all e g e d t h at it s n o nj u di ci al
f o r e cl o s u r e s al e w a s a ut h o ri z e d b y Mic hi g a n’ s fo r e cl o s u r e b y a d v e rti s e m e nt s t at ut e,
M C L § 6 0 0. 3 2 0 1 et s e q ., a n d f u rt h e r all e g e d t h at it s c o m pli a n c e wit h t h e r e q ui sit e s of
t he

St at ut e d e p ri v e d

P etiti o n e r of a l e g al d ef e n s e t o t h e e vi cti o n. S u m m a r y

P r o c e e di n g H e a ri n g J u n e 2 8, 2 0 1 9 T r. 4: 2 4 -5: 7 . P etiti o n e r fil e d a n A n s w e r a s s e rti n g

K o n d a u r all e g e s i n it s Affi d a vit of P o sti n g a n n e x e d t o it s A u g u st 2 5, 2 0 1 6 S h e riff’ D e e d, “t h at o n t h e
9 t h d a y of J ul y, 2 0 1 6 A. D., h e/ s h e p o st e d a n oti c e, a t r u e c o p y of w hi c h s a n n e x e d h e r et o, i n a
c o n s pi c u o u s pl a c e u p o n t h e p r e mi s e s d e s c ri b e d i n s ai d n oti c e b y att a c hi n g t h e s a m e i n a s e c u r e
m a n n e r t o 9 5 6 7 L e n o r e, R e df o r d, M I 4 8 2 3 9 -1 6 6 3. S e e A p p e n di x G.
5

10

K o n d a u r l a c k e d l e g al a ut h o rit y t o t e r mi n at e P etiti o n e r’ s titl e i nt e r e st i n t h e P r o p e rt y
by

n o nj u di ci al f o r e cl o s u r e s al e a n d t h e r ef o r e, l a c k e d l e g al a ut h o rit y t o t e r mi n at e

P etiti o n e r’ s o c c u p a n c y of t h e P r o p e rt y. D ef e n d a nt’ s A n s w e r a n d Affi r m ati v e D ef e n s e s
¶ ¶ 3 , 2 1. P etiti o n e r a r g u e d t h at K o n d a u r’ s n o nj u di ci al f o r e cl o s u r e s al e vi ol at e d h e r
c o n stit uti o n al d u e p r o c e s s ri g ht s b e c a u s e s h e di d n ot g r a nt K o n d a u r t h e p o w e r t o s al e
t h e P r o p e rt y b y n o nj u di ci al f o r e cl o s u r e s al e. D ef e n d a nt s’ B ri ef i n

O p p o siti o n t o

K o n d a u r’ s M oti o n f o r J u d g m e nt of P o s s e s si o n , 1 0. P etiti o n e r pl e a d e d t h at “ K o n d a u r’ s
A u g u st

2 5,

2016

S h e riff’ s

Dee d

u n c o n stit uti o n all y

t e r mi n at e s

D ef e n d a nt’ s

[ P etiti o n e r’ s] p r o p e rt y i nt e r e st i n t h e s u bj e ct p r o p e rt y wit h o ut d u e p r o c e s s of l a w.”
D ef e n d a nt s ’ B ri ef i n O p p o siti o n t o K o n d a u r’ s Moti o n f o r P o s s e s si o n at 1 1.
R e s p o n d e nt m o v e d t h e 1 7
eff e cti v el y

u p h ol d

K o n d a u r’ s

th

J u di ci al Di st ri ct C o u rt f o r t h e St at e of Mi c hi g a n t o

n o nj u di ci al f o r e cl o s u r e

of

P etiti o n e r’ s

P r o p e rt y ,

t e r mi n at e P etiti o n e r’ s o c c u p a n c y a n d e vi ct P etiti o n e r f r o m t h e P r o p e rt y. T h e T ri al
C o u rt f o u n d t h e r e w a s “ n o i s s u e of f a ct o r … l a w” a n d g r a nt e d K o n d a u r’ s M oti o n f o r
P o s s e s si o n. S u m m a r y P r o c e e di n g H e a ri n g J u n e 2 8, 2 0 1 7 T r. 9: 2 -3. T h e T ri al C o u rt
eff e cti v el y h el d t h at

Mi c hi g a n’ s F o r e cl o s u r e b y

A d v e rti s e m e nt St at ut e,

M CL §

6 0 0. 3 2 0 1 et s e q ., a ut ho ri z e d K o n d a u r’ s n o nj u di ci al f o r e cl o s u r e of P etiti o n e r’ s titl e
i nt e r e st i n t h e P r o p e rt y alt h o u g h it i s u n di s p ut e d t h at P etiti o n e r n e v e r si g n e d t h e
M o rt g a g e o r g r a nt e d

K o n d a u r o r it s p r e d e c e s s o r t h e p o w e r of s al e.

S u m m ar y

P r o c e e di n g J u n e 2 8, 2 0 1 7 T r. 1 1: 3 -4. T h e T ri al C o u rt ’ s J u d g m e nt of P o s s e s si o n
all o wi n g K o n d a u r t o e vi ct P etiti o n e r f r o m h e r h o m e c o n stit ut e d a n u n c o n stit uti o n al

11

t a ki n g of P etiti o n e r’ s P r o p e rt y i n vi ol ati o n of P etiti o n e r’ s d u e p r o c e s s ri g ht s u n d e r
th e 5

th

a n d 1 4 t h a m e n d m e nt s of t h e U nit e d St at e s C o n stit uti o n a s di s c u s s e d b el o w .
2. T h e 3r d J u di ci al Ci r c ui t C o u r t of t h e S t a t e of Mi c hi g a n
P etiti o n e r ti m el y a p p e al e d Mi c hi g a n’ s

1 7 t h J u di ci al Di st ri ct C o u rt’ s J u n e 2 8,

2 0 1 7 J u d g m e nt of P o s s e s si o n t o t h e 3r d J u di ci al Ci r c uit C o u rt f o r t h e st at e of
Mi c hi g a n . A p p ell a nt s s o u g ht r e v e r s al of t h e j u d g m e nt of p o s s e s si o n g r a nt e d i n f a v o r
of K o n d a u r. A p p ell a nt s L a D a w n D o u gl a s ’ a n d all ot h e r O c c u p a nt s’ B ri ef o n A p p e al,
1. P etiti o n e r a r g u e d t h at “ K o n d a u r’ s a cti o n i n r ef u si n g t o c o m m u ni c at e wit h L a D a w n
D o u gl a s a n d t h e r e b y r ef u si n g t o all o w h e r a n y r e ali sti c o p p o rt u nit y t o p r e s e r v e h e r
i nt e r e st i n t h e P ro p e rt y w hil e el e cti n g t o f o r e cl o s e t h e P r o p e rt y b y a d v e rti s e m e nt
i n st e a d of j u di ci all y d e ni e s L a D a w n D o u gl a s e v e n t h e b a sic h e a ri n g n e c e s s a r y t o f ulfil
L a D a w n D o u gl a s’ b a si c p r o c e d u r al d u e p r o c e s s ri g ht s a n d i s p at e ntl y i n e q uit a bl e.”
A p p ell a nt s L a D a w n D o u g l a s’ a n d all ot h e r O c c u p a nt s’ B ri ef o n A p p e al, 6.
A p p ell a nt p r a y e d t h at t h e 3

rd

J u di ci al Ci r c uit C o u rt f o r t h e st at e of Mi c hi g a n

“ s et a si d e t h e v oi d a bl e f o r e cl o s u r e b y a d v e rti s e m e nt d u e t o K o n d a u r’ s i nt e nti o n al a n d
d eli b e r at e a cti o n s t o p r ej u di c e L a D a w n D o u gl a s’ a bilit y t o p r e s e r v e h e r i nt e r e st.”
A p p ell a nt s’ L a D a w n D o u gl a s a n d all ot h e r O c c u p a nt s’ B ri ef o n A p p e al, 7.
On J a n u a r y 1 5, 2 0 1 9, t h e 3r d J u di ci al Ci r c uit C o u rt of t h e st at e of

Mi c hi g a n

di s mi s s e d P etiti o n e r’ s A p p e al i n a o n e-p a g e o r d e r w hi c h st at e s, “ Aft e r gi vi n g t h e
p a rti e s ti m e a n d o p p o rt u nit y t o r e s ol v e t h e m att e r s a n d t h e p a rti e s p r o c e e di n g o n t h e
a p p e al, t h e c o u rt c o n cl u d e s t h at r eli ef i n a p p ell a nt’ s a p p e al i s d e ni e d f o r t h e r e a s o n s
st at e d i n A p p ell e e, K o n d a u r C a pit al C o r p o r ati o n s, b ri ef a n d t h e a p p e al i s di s mi s s e d. ”

12

T h e r e a s o n s st at e d i n K o n d a u r’ s a p p ell at e b ri ef a r e t h e s a m e mi s pl a c e d j u stifi c ati o n s
s et f o rt h b y

Mi c hi g a n’ s 1 7 t h J u di ci al Di st ri ct C o u rt i n g r a nti n g t h e J u d g m e nt of

P o s s e s si o n i n f a v o r of K o n d a u r.
3. T h e C o u r t of A p p e al s f o r t h e S t a t e of Mi c hi g a n
P etiti o n e r ti m el y fil e d a d el a y e d a p pli c ati o n f o r l e a v e t o a p p e al t o Mi c hi g a n’ s
C o u rt of A p p e al s (t h e “ C o u rt of A p p e al s”) t o a p p e al
C o u rt’ s

Or d er

Di s mi s si n g

A p p e al . P etiti o n e r

Mi c hi g a n’ s 3 r d J u di ci al Ci r c uit

move d t he

C o u rt of

A p p e al s f o r

i m m e di at e c o n si d e r ati o n du e t o P etiti o n e r’ s p e n di n g e vi cti o n i n t h e 1 7 t h J u di ci al
Di st ri ct C o u rt f o r t h e st at e of Mi c hi g a n.
P etiti o n e r p r a y e d t h at

Mi c hi g a n’ s C o u rt of A p p e al s “ s et a si d e

K o n d a u r’ s

A u g u st 2 5, 2 0 1 6 s h e riff’ s s al e of t h e P r o p e rt y f o r p r ej u di c e a n d vi ol ati o n of L a D a w n
D o u gl a s’ p r o c e d u r al d u e p r o c e s s ri g ht s.” A p p ell a nt s’ L a D a w n D o u gl a s a n d all ot h e r
O c c u p a nt s’ B ri ef o n A p p e al, 1 3.

P etiti o ne r al s o m o v e d Mi c hi g a n’ s C o u rt of A p p e al s t o

r e m a n d t h e p r o c e e di n g t o t h e 1 7 t h J u di ci al Di st ri ct C o u rt (t h e “ T ri al C o u rt”) t o r ul e
o n,
W h et h e r K o n d a u r d e ni e d P etiti o n e r’ s st at e a n d f e d e r al
c o n stit uti o n al ri g ht t o d u e p r o c e s s w h e n K o n d a u r e nf o r c e d
it s li e n a g ai n st M s. D o u gl a s’ [ P etiti o n e r’ s] p r o p e rt y u si n g
Mi c hi g a n’ s st at e i s s u e d f o r e cl o s u r e b y a d v e rti s e m e nt
st at ut e, M C L § 6 0 0. 3 2 0 1 et s e q ., wit h o ut fi r st p r o vi di n g M s.
D o u gl a s wit h a ct u al n oti c e a n d a n o p p o rt u nit y t o b e h e a r d
at a h e a ri n g p ri o r t o t h e [ n o nj u di ci al] f o r e cl o s u r e s al e ?”
A p p ell a nt s’ M oti o n f o r R e m a n d , 3.
P etiti o n e r p r a y e d t h at

Mi c hi g a n’ s C o u rt of A p p e al s “ r e m a n d t h e c a s e t o t h e T ri al

C o u rt wit h i n st r u cti o n s t o d et e r mi n e w h et h e r t h e r e w a s a d ef e ct o r i r r e g ul a rit y i n
t h e s al e p r o c e d u r e,

w h et h e r a n y d ef e ct o r i r r e g ul a rit y vi ol at e d

M s.

D o u gl a s’

13

c o n stit uti o n al d u e p r o c e s s ri g ht s a s g u a r a nt e e d b y t h e U nit e d St at e s C o n st it uti o n.”
A p p ell a nt s’ M oti o n t o R e m a n d, 4. T h e C o u rt of A p p e al g r a nt e d p etiti o n e r’ s m oti o n f o r
i m m e di at e c o n si d e r ati o n,

d e ni e d

P etiti o n e r’ s

m oti o n t o r e m a n d

and

de ni e d

P etiti o n e r’ s d el a y e d a p pli c ati o n f o r a p p e al i n a o n e-p a g e o r d e r “f o r l a c k of m e rit o n
t h e g r o u n d s p r e s e nt e d” o n A p ril 8, 2 0 1 9.
4. T h e Mi c hi g a n S u p r e m e C o u r t
P etiti o n e r ti m el y fil e d a n a p pli c ati o n f o r l e a v e t o a p p e al t h e C o u rt of A p p e al s’
A p ril 8, 2 0 1 9

O r d e r. P etiti o n e r a r g u e d, “ Wit h o ut c o nt r a ct u al a ut h o ri z ati o n, t h e

f o r e cl o s u r e b y a d v e rti s e m e nt st at ut e c o n stit ut e s st at e a cti o n t h at vi ol at e s L a D a w n
D o u gl a s’ [ P etiti o n e r’ s] c o n stit uti o n al d u e p r o c e s s ri g ht t o a h e a ri n g a n d o p p o rt u nit y
t o b e h e a r d b ef o r e b ei n g d e p ri v e d of h e r i nt e r e st i n t h e P r o p e rt y. S e e N ati o n al Ai r p o rt
C o r p . v. W a y n e B a n k , 7 3 Mi c h. A p p. 5 7 2, 5 7 6 ( 1 9 77) .” A p p ell a nt’ s B ri ef i n S u p p o rt of
A p pli c ati o n f o r L e a v e t o A p p e al t o S u p r e m e C o u rt, 9 . P etiti o n e r f u rt h e r a r g u e d, “t h e
u n c o n stit uti o n al s h e riff’ s s al e b y a d v e rti s e m e nt w a s a n u n c o n stit uti o n al t a ki n g of h e r
[ P etiti o n e r’ s] p r o p e rt y wit h o ut d u e p r o c e s s u n d e r

Mi c hi g a n’ s c o n stit uti o n, C o n st.

1 9 6 3, a rt. 1 § 1 7, a n d t h e U nit e d St at e s C o n stit uti o n, C o n st. A m e n d. 1 4.” A p p ell a nt’ s
B ri ef i n S u p p o rt of A p pli c ati o n f o r L e a v e t o A p p e al t o S u p r e m e C o u rt, 1 0.
On

D e c e m b e r 2 3, 2 0 1 9, t h e

Mi c hi g a n S u p r e m e C o u rt d e ni e d P etiti o n e r’ s

a p pli c ati o n f o r l e a v e t o a p p e al i n a o n e-p a g e o r d e r b e c a u s e it w a s “ n ot p e r s u a d e d t h at
t h e q u e sti o n s p r e s e nt e d s h o ul d b e r e vi e w e d b y t hi s C o u rt.” Mi c hi g a n’ s S u p r e m e
C o u rt

di d

n ot c e rtif y t o t h e

Mi c hi g a n

Att o r n e y

G e n e r al t h e f a ct t h at t h e

14

c o n stit uti o n alit y of a st at ut e of t h at St at e w a s d r a w n i nt o q u e sti o n p u r s u a nt t o 2 8
U. S. C. § 2 4 0 3( b) .
R E A S O N S F O R G R A N TI N G T H E P E TI TI O N
A. T h e d e ci si o n b el o w i s i n c o n si s t e n t wi t h U ni t e d S t a t e s S u p r e m e C o u r t
P r e c e d e n t.
T h e l o w e r c o u rt d e ci si o n s a r e m a nif e stl y i n c o n si st e nt wit h t h e U nit e d St at e s
S u p r e m e C o u rt’ s f u n d a m e nt al t e n et s of d u e p r o c e s s. T h e l o w e r c o u rt s i g n o r e d t h e
c o n stit uti o n al

p r ot e cti o n s

b uilt i nt o Mi c hi g a n’ s f o r e cl o s u r e l a w s

and

i g n or e d

P etiti o n e r ’ s ri g ht t o d u e p r o c e s s u n d e r t h e 5t h a n d 1 4 t h a m e n d m e nt s t o t h e U nit e d
St at e s

C o n stit uti o n.

B ot h t h e 5

th

a n d 1 4 t h a m e n d m e nt s r e q ui r e n oti c e a n d a n

o p p o rt u nit y t o b e h e a r d p ri o r t o t h e d e p ri v ati o n of a s u b st a nti al p r o p e rt y i nt e r e st.
F u e nt e s v. S h e vi n , 4 0 7 U. S. 6 7, 9 2; 9 2 S. Ct. 1 9 8 3; 3 2 L. E d. 2 d 5 5 6 ( 1 9 7 2); A m e ri c a n
S u r et y C o . v. B al d wi n , 2 8 7 U. S. 1 5 6, 1 6 8; 5 3 S. Ct. 9 8, 1 0 2; 7 7 L. E d. 2 3 1 ( 1 9 3 2); B o d di e
v. C o n n e cti c ut , 4 0 1 U. S. 3 7 1, 3 7 9; 9 1 S. Ct. 7 8 0, 7 8 6; A m e ri c a n S u r et y C o . v. B al d wi n ,
2 8 7 U. S. 1 5 6, 1 6 8; 5 3 S. Ct. 9 8, 1 0 2; 7 7 L. E d. 2 3 1 ( 1 9 3 2) ; S n ai d a c h v. F a mil y Fi n a n c e
C o r p ., 3 9 5 U. S. 3 3 7, 3 4 3; 8 9 S. Ct. 1 8 2 0, 1 8 2 3; a n d D .H . O v e r m e y e r C o . I n c ., of O hi o
v. F ri c k C o ., 4 0 5 U. S. 1 7 4, 9 2 S. Ct. 7 7 5, 3 1 L. E d. 2 d. 1 2 4 ( 1 9 7 2). T h e T ri al C o u rt
r e c o n st r u e d P etiti o n e r’ s l e g al a r g u m e nt a n d t h e m ai n i s s u e i n t h e c a s e st ati n g “t h e
is s u e t h at s h e [ P etiti o n e r] i s n’t s u bj e ct t o t h e m o rt g a g e b e c a u s e s h e di d n’t si g n t h e
m o rt g a g e, d o e s n’t st a n d i n t e r m s of m att e r of l a w.” S u m m a r y P r o c e e di n g H e a ri n g
J u n e 2 8, 2 0 1 7 T r. 9: 1 2 -1 4. P etiti o n e r

ma de t wo

m ai n a r g u m e nt s. Fi r st, t h at t h e

n o nj u di ci al f o r e cl o s u r e w a s v oi d a s a m att e r of l a w f o r l a c k of c o nt r a ct u al a ut h o rit y

15

a n d s e c o n d, t h at t h e v oi d f o r e cl o s u r e s al e vi ol at e d P etiti o n e r’ s d u e p r o c e s s ri g ht s.
D ef e n d a nt’ s B ri ef i n O p p o siti o n t o K o n d a u r’ s

M oti o n f o r J u d g m e nt of P o s s e s si o n .

I n st e a d of a c k n o wl e d gi n g t h at P etiti o n e r w a s n ot a p a rt y t o t h e m o rt g a g e c o nt r a ct ,
t h e T ri al C o u rt a n d s u b s e q u e nt a p p ell at e c o u rt s e q ui v o c at e d t h at P etiti o n e r’ s titl e
i nt e r e st b e c a m e s u bj e ct t o t h e p o w e r of s al e p r o vi si o n of t h e

M o rt g a g e s h e n e v e r

si g n e d b y vi rt u e of t h e Di v o r c e D e c r e e a n d 2 0 1 4 q uit cl ai m d e e d e x e c ut e d b y Cliff o r d
D o u gl a s, J r. i n f a v o r of P etiti o n e r . S u m m a r y P r o c e e di n g H e a ri n g J u n e 2 8, 2 0 1 7 T r.
9: 4 -1 8 . T h e T ri al C o u rt’ s l e g al r e a s o ni n g mi s c h a r a ct e ri z e d t h e Di v o r c e D e c r e e a n d
Q uit Cl ai m d e e d a s i n st r u m e nt s of a s s u m pti o n 6 a s if P etiti o n e r a s s u m e d t h e s u bj e ct
m o rt g a g e i n st e a d of P etiti o n e r o w ni n g t h e P r o p e rt y “ s u bj e ct t o”

7

t he

M o rt g a g e.

S u m m a r y P r o c e e di n g H e a ri n g J u n e 2 8, 2 0 1 9 T r. 4: 1 9 -2 4 . I n d oi n g s o, t h e T ri al C o u rt
i g n o r e d Mi c hi g a n’ s l o n g-st a n di n g f o r e cl o s u r e l a w a n d vi ol at e d P etiti o n e r’ d u e p r o c e s s
ri g ht s r e g a r di n g P etiti o n e r’ s c o m p eti n g titl e i nt e r e st i n t h e P r o p e rt y . By g r a nti n g
K o n d a u r a J u d g m e nt of P o s s e s si o n o n J u n e 2 8, 2 0 1 7, t h e r e b y u p h ol di n g K o n d a u r’ s
u n a ut h o ri z e d a n d u n c o n stit uti o n al n o nj u di ci al f o r e cl o s u r e s al e, t h e c o u rt s of t h e st at e
of

Mi c hi g a n a ut h o ri z e d K o n d a u r t o e vi ct

P etiti o n e r f r o m

h er

ho me

wit h n o

m e a ni n gf ul o p p o rt u nit y t o c h all e n g e t h e u nl a wf ul f o r e cl o s u r e.8
6

“[ A] n a s s u m pti o n of t h e m o rt g a g e d e bt b y a g r a nt e e of t h e m o rt g a g e d p r e mi s e s c o n stit ut e s a n o ri gi n al
a b s ol u t e p r o mi s e t o p a y, e nf o r c e a bl e b y t h e m o rt g a g e e.” 5 5 A m. J u r. 2 d M o rt g a g e s § 1 1 4 4. “ A n
a g r e e m e nt m e r el y t o t a k e l a n d, s u bj e ct t o a s p e cifi e d i n c u m b r a n c e, i s n ot a n a g r e e m e nt t o a s s u m e a n d
p a y t h e i n c u m b r a n c e.” S h e p h e r d v. M a y , 1 1 5 U. S. 5 0 5, 5 1 0 ( 1 8 8 5) q u oti n g Elli ott v. S a c k ett , 1 0 8 U. S.
1 3 2, 1 3 9; 2 S. Ct. 3 7 5, 3 7 9 .
7

S h e p h e r d v. M a y , 1 1 5 U. S. 5 0 5, 5 1 0 ( 1 8 8 5); Elli ott v. S a c k ett , 1 0 8 U. S. 1 3 2, 1 3 9; 2 S. C t. 3 7 5, 3 7 9.

8 A m aj o rit y of Mi c hi g a n c o u rt s h a v e r ul e d t h at a pl ai ntiff l o s e s st a n di n g o n c e t h e r e d e m pti o n p e ri o d
p u r p o rt e dl y e x pi r e s, e v e n w h e n a pl ai ntiff fil e s s uit p ri o r t o t h e e x pi r ati o n of t h e r e d e m pti o n p e ri o d.
B r y a n v. J P M o r g a n C h a s e B a n k , 3 0 4 Mi c h. A p p. 7 0 8, 7 1 5; 8 4 8 N. W. 2 d 4 8 2 ( 2 0 1 4).

16

Mi c hi g a n’ s c o u rt s p r o vi d e d n o l e g al a ut h o rit y j u stif yi n g t h e St at e s a n cti o n e d s ei z u r e
of P etiti o n e r’ s p r o p e rt y wit h o ut a n o p p o rt u nit y f o r a p ri o r h e a ri n g. T h e r e a r e li mit e d
“ e xt r a o r di n a r y sit u ati o n s” i n w hi c h s ei z u r e wit h o ut a n o p p o rt u nit y f o r a p ri o r h e a ri n g
i s j u stifi e d. B o d di e v. C o n n e cti c ut , 4 0 1 U. S. 3 7 1, 3 7 9; 9 1 S. Ct. 7 8 0, 7 8 6. “ T h e C o u rt
h a s all o w e d s u m m a r y s ei z u r e of p r o p e rt y t o c oll e ct t h e i nt e r n al r e v e n u e of t h e U nit e d
St at e s, t o m e et t h e n e e d s of a n ati o n al w a r eff o rt, t o p r ot e ct a g ai n st t h e e c o n o mi c
di s a st e r of b a n k f ail u r e s, a n d t o p r ot e ct t h e p u bli c f r o m

mi s b r a n d e d d r u g s a n d

c o nt a mi n at e d f o o d.” F u e nt e s v. S h e vi n , 4 0 7 U. S. 6 7, 9 2 ; 9 2 S. Ct. 1 9 8 3; 3 2 L. E d. 2 d 5 5 6
( 1 9 7 2).

Mi c hi g a n’ s f o r e cl o s u r e b y a d v e rti s e m e nt st at ut e

does

n ot s e r v e s u c h

i m p o rt a nt g o v e r n m e nt al o r g e n e r al p u bli c i nt e r e st s. I n f a ct, n o m o r e t h a n K o n d a u r’ s
p ri v at e g ai n a n d a d mi ni st r ati v e c o n v e ni e n c e w a s di r e ctl y at st a k e.
E v e n at t hi s st a g e i n t h e c a s e, l o n g aft e r t h e u n c o n stit uti o n al s ei z u r e of
P etiti o n e r’ s p r o p e rt y, P etiti o n e r h a s y et t o r e c ei v e a

m e a ni n gf ul o p p o rt u nit y t o

p r e s e nt e v e r y a v ail a bl e d ef e n s e t o K o n d a u r’ s n o nj u di ci al f o r e cl o s u r e alt h o u g h “[ d] u e
p r o c e s s r e q ui r e s t h at t h e r e b e a n o p p o rt u nit y t o p r e s e nt e v e r y a v ail a bl e d ef e n s e.”
A m e ri c a n S u r et y C o . v. B al d wi n , 2 8 7 U. S. 1 5 6, 1 6 8 ; 5 3 S. Ct. 9 8, 1 0 2; 7 7 L. E d. 2 3 1
( 1 9 3 2). E v e n a s s u mi n g a r g u e n d o t h at P etiti o n e r h a d t h e b a si c o p p o rt u nit y t o a n d di d
p r e s e nt a v ail a bl e d ef e n s e s t o t h e u n c o n stit uti o n al t a ki n g i n t h e c ou rt s b el o w, n o n e of
t h e l o w e r c o u rt s e v al u at e d P etiti o n e r’ s l e g al d ef e n s e s o r t h e c o n stit uti o n alit y of t h e
n o nj u di ci al f o r e cl o s u r e s al e i n t h e c o nt e xt of t h e r el e v a nt f a ct s a n d ci r c u m st a n c e s of
t h e c a s e – n a m el y t h e f a ct t h at P etiti o n e r di d n ot c o nt r a ct u all y g r a nt K o n d a u r t h e

17

p o w e r t o s al e t h e P r o p e rt y n o nj u di ci all y. N ot o n e of Mi c hi g a n’ s c o u rt s p r o vi d e s e v e n
a c u r s o r y m e nti o n of P etiti o n e r’ s d u e p r o c e s s ri g ht s o r t h e c o n stit uti o n alit y of t h e
n o nj u di ci al f o r e cl o s u r e. N o n e of t h e h e a ri n g s t h at o c c u r r e d aft e r t h e s ei z u r e p r o vi d e d
a r e al t e st of t h e c o n stit uti o n alit y of t h e n o nj u di ci al f o r e cl o s u r e s al e . “ Si n c e t h e
e s s e nti al r e a s o n f o r t h e r e q ui r e m e nt of a p ri o r h e a ri n g i s t o p r e v e nt u nf ai r a n d
mi st a k e n d e p r i v ati o n of p r o p e rt y, h o w e v e r, it i s a xi o m ati c t h at t h e h e a ri n g

m u st

p r o vi d e a r e al t e st.” F u e nt e s v. S h e vi n , 4 0 7 U. S. 6 7, 9 7; 9 2 S. Ct. 1 9 8 3; 3 2 L. E d. 2 d 5 5 6
( 1 9 7 2). “ D u e p r o c e s s i s aff o r d e d o nl y b y t h e ki n d s of ‘ n oti c e’ a n d ‘ h e a ri n g’ t h at a r e
ai m e d at e st a b li s hi n g t h e v ali dit y, o r at l e a st t h e p r o b a bl e v ali dit y, of t h e u n d e rl yi n g
cl ai m a g ai n st t h e all e g e d d e bt o r b ef o r e h e c a n b e d e p ri v e d of hi s p r o p e rt y ….”
S n ai d a c h v. F a mil y Fi n a n c e C o r p ., 3 9 5 U. S. 3 3 7, 3 4 3; 8 9 S. Ct. 1 8 2 0 , 1 8 2 3 . P etiti o n e r
n e v e r r e c ei v e d t h e o p p o rt u nit y f o r a h e a ri n g i n w hi c h s h e h a d a t r u e a n d m e a ni n gf ul
o p p o rt u nit y t o c h all e n g e t h e v ali dit y a n d c o n stit uti o n alit y o f K o n d a u r’ s n o nj u di ci al
f o r e cl o s u r e a s t o P etiti o n e r’ s i nt e r e st i n t h e P r o p e rt y. It i s n ot a bl e t h at a m aj o rit y of
Mi c hi g a n c o u rt s h a v e c o n si st e ntl y h el d t h at m o rt g a g o r s a n d i n di vi d u al s wi s hi n g t o
c h all e n g e a n o nj u di ci al f o r e cl o s u r e l a c k st a n di n g t o d o s o i n a s uit t h e m o rt g a g o r o r
t h e c h all e n gi n g p a rt y i niti at e s. S e e s u p r a n. 7 . T h e r ef o r e,

P etiti o n e r h a d n o

m e a ni n gf ul o p p o rt u nit y t o r e q u e st a h e a ri n g p ri o r t o K o n d a u r’ s s h e riff’ s s al e. F o r t hi s
r e a s o n, P etiti o n e r w ait e d f o r K o n d a u r t o i niti at e it s o w n s u m m a r y p r o c e e di n g a ft e r
t h e e x pi r ati o n of t h e p u r p o rt e d r e d e m pti o n p e ri o d a n d c h all e n g e d t h e n o nj u di ci al
f o r e cl o s u r e a s a n o c c u p a nt of t h e P r o p e rt y – t o e n s u r e t h at P etiti o n e r h a d st a n di n g
t o a s s e rt h e r d ef e n s e s . I n st e a d of e v al u ati n g P etiti o n e r’ s d ef e n s e s, t h e T ri al C o u rt

18

a n d t h e a p p ell at e c o u rt s t h at affi r m e d t h e T ri al C o u rt’ s r uli n g, e s s e nti all y a r g u e d
t h at P etiti o n e r w ai v e d h e r d u e p r o c e s s ri g ht s b e c a u s e s h e o w n e d t h e P r o p e rt y s u bj e ct
t o K o n d a u r’ s m o rt g a g e. W hil e it i s t r u e t h at P etiti o n e r o w n e d t h e P r o p e rt y s u bj e ct t o
K o n d a u r’ s m o rt g a g e, P etiti o n e r di d n ot g r a nt K o n d a u r t h e p o w e r of s al e a n d di d n ot
w ai v e h e r ri g ht t o d u e p r o c e s s . Alt h o u g h d u e p r o c e s s ri g ht s t o n oti c e a n d a h e a ri n g
p ri o r t o d e p ri v ati o n of p r o p e rt y a r e s u bj e ct t o w ai v e r i n ci vil a n d c ri mi n al c a s e s, D .H .
O v e r m e y e r C o . I n c ., of O hi o v. F ri c k C o ., 4 0 5 U. S. 1 7 4, 9 2 S. Ct. 7 7 5, 3 1 L. E d. 2 d. 1 2 4
( 1 9 7 2); N ati o n al E q ui p m e nt R e nt al , Lt d . v. S z u k h e nt , 3 7 5 U. S. 3 1 1; 8 4 S. Ct. 4 1 1; 1 1
L. E d. 2 d 3 5 4 ( 1 9 6 4) . P etiti o n e r n e v e r w ai v e d h e r d u e p r o c e s s ri g ht s a s t o t h e P r o p e rt y.
E v e n i n c a s e s w h e r e n oti c e a n d a h e a ri n g w e r e w ai v e d, a w ai v e r m u st b e “ v ol u nt a r y,
k n o wi n g, a n d i nt elli g e ntl y m a d e,” B r a d y v. U nit e d St at e s , 3 9 7 U. S. 7 4 2, 7 4 8; 9 0 S. Ct.
1 4 6 3, 1 4 6 8; 2 5 L. E d. 2 d 7 4 7 ( 1 9 7 0 ) o r “ a n i nt e nti o n al r eli n q ui s h m e nt o r a b a n d o n m e nt
of a k n o w n ri g ht o r p ri vil e g e.” J o h n s o n v. Z e r b st , 3 0 4 U. S. 4 5 8, 4 6 4; 5 8 S. Ct. 1 0 1 9;
1 0 2 3; 8 2 L. E d. 1 4 6 1 ( 1 9 3 8) ; F a y v. N oi a , 3 7 2 U. S. 3 9 1 , 4 3 9; 8 3 S. Ct. 8 2 2, 8 4 9 . “ W e d o
n ot p r e s u m e a c q ui e s c e n c e i n t h e l o s s of f u n d a m e nt al ri g ht s,” O hi o B ell T el . C o . v.
P u bli c Utiliti e s C o m m ’n , 3 0 1 U. S. 2 9 2, 3 0 7; 5 7 S. Ct. 7 2 4, 7 3 1; 8 1 L. E d. 1 0 9 3 ( 1 9 3 7).
P etiti o n e r i s n ot a p a rt y t o t h e c o nt r a ct t h at g r a nt e d t h e p o w e r of s al e a n d P etiti o n e r
n e v e r “ v ol u nt a ril y, i nt elli g e ntl y, a n d k n o wi n gl y” w ai v e d h e r ri g ht t o n oti c e
m e a ni n gf ul o p p o rt u nit y t o b e h e a r d b ef o r e

or a

K o n d a u r c o n d u ct e d it s n o nj u di ci al

f o r e cl o s u r e s al e a n d s ei z e d P etiti o n e r’ s h o m e. D .H . O v e r m e y e r C o . I n c ., of O hi o v.
F ri c k C o ., 4 0 5 U. S. 1 7 4, 1 87 ; 9 2 S. Ct. 7 7 5; 3 1 L. E d. 2 d. 1 2 4 ( 1 9 7 2).

19

T hi s g r e at c o u nt r y w a s f o u n d e d o n t h e n oti o n of d e m o c r a c y a n d f r e e d o m f o r all
citi z e n s. O u r f o u n di n g f at h e r s p ai n st a ki n gl y w r ot e a n d r atifi e d t h e C o n stit uti o n of
o u r U nit e d St at e s a n d t h e Bill of Ri g ht s t o e n g r ai n t h e s e b a si c t e n et s i n o u r l e g al
s y st e m. T h e st at e of Mi c hi g a n h a s bl at a ntl y i g n o r e d t h e s e t e n et s. “[ I]t i s cl e a r t h at
t h e D u e P r o c e s s Cl a u s e a p pli e s t o a c r e dit o r’ s eff o rt t o e nf o r c e it s li e n t h r o u g h j u di ci al
p r o c e e di n g s o r ot h e r st at e a cti o n a g ai n st a d ef a ulti n g d e bt o r.” D o w

v. St at e of

Mi c hi g a n , 3 9 6 Mi c h. 1 9 2 ( 1 9 7 6) . St at e a cti o n o c c u r s w h e n a c r e dit o r utili z e s p r o c e s s
i s s u e d b y st at e offi ci al s t o e nf o r c e it s cl ai m. S n ai d a c h v. F a mil y Fi n a n c e C o r p ., 3 9 5
U. S. 3 3 7 , 3 4 2 ( 1 9 6 9). F u rt h e r m o r e, “[ w] h e r e a c r e dit o r utili z e s p r o c e s s i s s u e d b y t h e
st at e t o e nf o r c e hi s cl ai m a g ai n st t h e d ef a ulti n g d e bt o r, w e h e a rtil y a g r e e wit h o u r
S u pr e m e

C o u rt t h at t h e r e i s s u c h st at e a cti o n s o a s t o

w a r r a nt d u e p r o c e s s

a p pli c ati o n t o s u c h p r o c e d u r e s.” N ati o n al Ai r p o rt C o r p . v. W a y n e B a n k , 7 3 Mi c h. A p p.
5 7 2, 5 7 7 ( 1 9 7 7). Wit h o ut c o nt r a ct u al a ut h o ri z ati o n, t h e f o r e cl o s u r e b y a d v e rt i s e m e nt
st at ut e c o n stit ut e s st at e a cti o n t h at vi ol at e s P etiti o n e r’ s c o n stit uti o n al d u e p r o c e s s
ri g ht t o a h e a ri n g a n d o p p o rt u nit y t o b e h e a r d b ef o r e b ei n g d e p ri v e d of h e r i nt e r e st
i n t h e P r o p e rt y. S e e N ati o n al Ai r p o rt C o r p . v. W a y n e B a n k , 7 3

Mi c h. A p p. at 5 7 6

( 1 9 7 7). “ A p r o c e d u r al r ul e t h at m a y s ati sf y d u e p r o c e s s f o r att a c h m e nt s i n g e n e r al,
s e e M c K a y v. M cl n n e s , 2 7 9 U. S. 8 2 0, 4 9 S. Ct. 3 4 4, 7 3 L. E d. 9 7 5, d o e s n ot n e c e s s a ril y
s ati sf y p r o c e d u r al d u e p r o c e s s i n e v e r y c a s e.” S n ai d a c h v. F a mil y Fi n a n c e C o r p ., 3 9 5
U. S. at 3 4 0 ( 1 9 6 9).
P etiti o n e r c h all e n g e d t h e c o n stit uti o n alit y of t h e f o r e cl o s u r e b y a d v e rti s e m e nt
a s t o h e r i nt e r e st i n t h e P r o p e rt y i n t h e T ri al C o u rt i n pl e a di n g:

20

K o n d a u r’ s
A u g u st
2 5,
2016
S h e riff’ s
Dee d
u n c o n stit uti o n all y t e r mi n at e s Pl ai ntiff’ s p r o p e rt y i nt e r e st
i n t h e s u bj e ct p r op e rt y wit h o ut d u e p r o c e s s of l a w. S e e
L a D a w n D o u gl a s’ a n d all ot h e r o c c u p a nt s R e s p o n s e t o
K o n d a u r’ s M oti o n f o r P o s s e s si o n at 1 1.
M s. D o u gl a s pl e a d e d i n t h e T ri al C o u rt:
K o n d a u r f al s el y o bt ai n e d a n d r e c o r d e d a s h e riff’ s d e e d [ b y
a d v e rti s e m e nt] a g ai n st L a D a w n D o u gl a s’ [ P etiti o n e r’ s]
o w n e r s hi p i nt e r e st i n t h e P r o p e rt y wit h o ut d u e p r o c e s s of
l a w a n d wit h o ut a n y c o nt r a ct u al ri g ht o r r e m e d y a g ai n st
L a D a w n D o u gl a s. [ K o n d a u r’ s] r e c o r di n g a n d p u bli c ati o n of
t h e s h e riff’ s d e e d f al s el y l e a d s o n e t o c o nt e m pl at e t h at t h e
S h e riff’ s D e e d t e r mi n at e d all o w n e r s hi p i nt e r e st i n t h e
s u bj e ct p r o p e rt y, h o w e v e r, L a D a w n D o u gl a s’ [ P etiti o n e r]
i nt e r e st i n t h e p r o p e rt y m a y o nl y b e t e r mi n at e d b y a
j u di ci al f o r e cl o s u r e of t h e s u bj e ct p r o p e rt y b e c a u s e
[ L a D a w n D o u gl a s] i s n ot a p a rt y t o t h e s u bj e ct m o rt g a g e.
Mi c hi g a n’ s f o r e cl o s u r e b y a d v e rti s e m e nt st at ut e w a s i s s u e d b y

Mi c hi g a n’ s

l e gi sl at u r e, w h o a r e st at e offi ci al s. T h e r ef o r e, a f o r e cl o s u r e b y a d v e rti s e m e nt a g ai n st
a p a rt y t h at di d n ot si g n t h e s u bj e ct m o rt g a g e c o n stit ut e s st at e a cti o n b y e nf o r ci n g
t h e l a w s of t h e st at e of Mi c hi g a n t o d e p ri v e a citi z e n of t h e U nit e d St at e s of a p r o p e rt y
i nt e r e st wit h o ut d u e p r o c e s s . S n ai d a c h v. F a mil y Fi n a n c e C o r p ., 3 9 5 U. S. at 3 4 2
( 1 9 6 9). A s s u c h,
P etiti o n e r’ s

K o n d a u r a n d t h e l o w e r c o u rt s , a s st at e a ct o r s, h a v e vi ol at e d

c o n stit uti o n al d u e p r o c e s s ri g ht s a b s e nt

w ai v e r o r j u stifi c ati o n a s

di s c u s s e d a b o v e .
A

S h e riff r e c ei v e s it s p o w e r a n d a ut h o rit y t o c o nf e r a s h e riff’ s d e e d b y

n o nj u di ci al f o r e cl o s u r e f r o m t h e l a w s of t h e st at e.

Wit h o ut P etiti o n e r’ s c o nt r a ct u al

c o n s e nt t o t h e n o nj u di ci al s al e , K o n d a u r’ s s h e riff’ s s al e a n d t h e s h e riff g r a nti n g
K o n d a u r a s h e riff’ s d e e d t o P etiti o n e r’ s P r o p e rt y c o n stit ut e d st at e a cti o n. S n ai d a c h

21

v. F a mil y Fi n a n c e C o r p ., 3 9 5 U. S. at 3 4 2 ( 1 9 6 9) (f o r t h e g e n e r al p r o p o siti o n t h at st at e
a cti o n c o n stit ut e s a t a ki n g i n vi ol ati o n of f u n d a m e nt al p ri n ci pl e s of d u e p r o c e s s w h e n
t h e r e i s a d e p ri v ati o n of p r o p e rt y wit h o ut n oti c e a n d a p ri o r h e a ri n g) .“[ T] h e s h e riff’ s
a ut h o rit y t o s ell i n t hi s c o u nt r y i s i n t h e n at u r e of a n a k e d p o w e r c o nf e r r e d b y st at ut e;
h e t a k e s n o titl e i n l a n d b y l e v y a s h e d o e s i n g o o d s a n d c a n c o nf e r n o n o n p u r c h a s e r
if p o w e r t o s ell i s w a nti n g.” G a ntl y ’ s L e s s e e v. E wi n g , 4 4 U. S. 7 0 7, 7 1 4 ; 1 1 L. E d 7 9 4 .
It i s u n di s p ut e d t h at P etiti o n e r di d n ot g r a nt K o n d a u r o r it s p r e d e c e s s o r t h e p o w e r
t o s al e t h e P r o p e rt y n o nj u di ci all y. A c c o r di n gl y, t h e S h e riff’ s D e e d i s s u e d t o K o n d a u r
l a c k e d t h e r e q ui r e d c o nt r a ct u al a ut h o rit y t o r el y o n

Mi c hi g a n’ s f o r e cl o s u r e b y

a d v e rti s e m e nt st at ut e t o c o nf e r a ut h o rit y t o i s s u e a s h e riff’ s d e e d o r t r a n sf e r
P etiti o n e r’ s titl e i nt e r e st i n t h e P r o p e rt y t o K o n d a u r. B e c a u s e t h e s h e riff l a c k e d
a ut h o rit y t o c o nf e r t h e P r o p e rt y t o K o n d a u r, t h e S h e riff’ s D e e d di d n ot t e r mi n at e
P etiti o n e r’ s i nt e r e st i n t h e p r o p e rt y. G a ntl y ’ s L e s s e e v. E wi n g , 4 4 U. S. at 7 1 4. At t h e
l e a st, t h e e q uit y of r e d e m pti o n r e m ai n s u ntil t h e m o rt g a g e i s f o r e cl o s e d b y j u di ci al
f o r e cl o s u r e o r s o m e m o d e of t r a n sf e r r e c o g ni z e d b y l a w. S hill a b e r v. R o bi n s o n , 9 7 U. S.
6 8, 7 8 ; 1 8 7 7 W L 1 8 5 9 5 .
T he

st at e

of

Mi c hi g a n’ s

r atifi c ati o n

and

e nf o r c e m e nt

of

K o n d a u r’ s

u n a ut h o ri z e d n o nj u di ci al f o r e cl o s u r e s al e, t h r o u g h it s s h e riff offi c e r a n d c o u rt s,
c o n stit ut e s a n u n c o n stit uti o n al t a ki n g of P etiti o n e r’ s P r o p e rt y. It i s n ot e w o rt h y t h at
t h e m o rt g a g e at i s i s s u e w a s i n s u r e d b y t h e F e d e r al H o u si n g A d mi ni st r ati o n (“ F H A”).
I m m e di at el y u p o n o bt ai ni n g p o s s e s si o n of t h e P r o p e rt y t h r o u g h t h e 1 7 t h J u di ci al
Di st ri ct C o u rt’ s J u d g m e nt of P o s s e s si o n, K o n d a u r fil e d a cl ai m wit h t h e

U nit e d

22

St at e s D e p a rt m e nt of H o u si n g a n d U r b a n D e v el o p m e nt (“ H U D”) a n d t r a n sf e r r e d t h e
P r o p e rt y t o H U D.
B. T hi s Q u e s ti o n i s of Si g nifi c a n t N a ti o n al I m p o r t a n c e.
N ot o nl y di d K o n d a u r vi ol at e t h e 5

th

a n d 1 4 t h a m e n d m e nt s t o t h e U nit e s St at e s

C o n stit uti o n, K o n d a u r al s o vi ol at e d f e d e r al r e g ul ati o n s s et i n pl a c e b y t h e U nit e d
St at e s C o n s u m e r Fi n a n ci al P r ot e cti o n B u r e a u (“ C F P B”) t o r e s ol v e t h e v e r y i s s u e i n
t hi s c a s e. Eff e cti v e J a n u a r y 1 0, 2 0 1 4, s e r vi c e r s w e r e r e q ui r e d t o i n stit ut e p oli ci e s a n d
p r o c e d u r e s “ r e a s o n a bl y d e si g n e d t o e n s u r e t h at

… t h e s e r vi c e r p r o m ptl y i d e ntifi e s

a n d f a cil it at e s c o m m u ni c ati o n wit h a s u c c e s s o r i n i nt e r e st.” C F P B B ull eti n 2 0 1 3 -1 2
( O ct o b e r 1 5, 2 0 1 3), 2. “ A s u c c e s s o r i n i nt e r e st i s t h e s p o u s e, c hil d, o r h ei r o f a d e c e a s e d
b o r r o w e r o r ot h e r p a rt y wit h a n i nt e r e st i n t h e p r o p e rt y.” I d . n. 7.
P etiti o n e r, a s t h e f o r m e r s p o u s e of t h e

m o rt g a g o r,

Cliff o r d

D o u gl a s, J r.,

q u alifi e s a s a s u c c e s s o r i n i nt e r e st u n d e r C F P B B ull eti n 2 0 1 3 -1 2.
T h e C F P B a d o pt e d t h e s u c c e s s o r i n i nt e r e st p r o vi si o n of
t h e P oli ci e s a n d P r o c e d u r e s R ul e aft e r l e a r ni n g a b o ut
diffi c ulti e s t h at s o m e s u r vi vi n g s p o u s e s, c hil d r e n, o r ot h e r
s u c c e s s o r s i n i nt e r e st e x p e ri e n c e d i n att e m pti n g t o
c o m m u ni c at e wit h s e r vi c e r s. (f o ot n ot e o mitt e d). T h e C F P B
h a s r e c ei v e d r e p o rt s of s e r vi c e r s eit h e r o ut ri g ht r ef u si n g t o
s p e a k t o a s u c c e s s o r i n i nt e r e st o r d e m a n di n g d o c u m e nt s
t o p r o v e t h e s u c c e s s o r i n i nt e r e st’ s cl ai m t h at d o n ot e xi st
(e .g . p r o b at e c o u rt d o c u m e nt s f o r a n e st at e t h at i s n ot
r e q ui r e d t o g o t h r o u g h p r o b at e) o r a r e n ot r e a s o n a bl y
a v ail a bl e. T h e s e p r a cti c e s oft e n p r e v e nt a s u c c e s s o r i n
i nt e r e st f r o m p u r s ui n g a s s u m pti o n of t h e m o rt g a g e l o a n
a n d, if a p pli c a bl e, l o s s miti g ati o n o pti o n s - p ot e nti all y
r e s ulti n g i n t h e a v oi d a bl e l o s s of t h e h o m e. I n a p pl yi n g t h e
P oli ci e s a n d P r o c e d u r e s R ul e, t h e C F P B s e e k s t o r e d u c e t h e
n u m b e r of u n n e c e s s a r y d ef a ult s a n d f o r e cl o s u r e s,
i n cl u di n g t h o s e f oll o wi n g t h e d e at h of a b o r r o w e r. C F P B
B ull eti n 2 0 1 3 -1 2 ( O ct o b e r 1 5, 2 0 1 3).

23

N ot a bl y, t h e C F P B a m e n d e d t h e R e al E st at e S ettl e m e nt P r o c e d u r e s A ct, 1 2
C. F. R. § 1 0 2 4, eff e cti v e A p ril 1 9, 2 0 1 8 a n d e x p a n di n g o n C F P B B ull eti n 2 0 1 3 -1 2, t o
r e q ui r e

m o rt g a g e s e r vi c e r s, s u c h a s K o n d a u r, t o c o m m u ni c at e wit h s u c c e s s o r s i n

i nt e r e st, s u c h a s P etiti o n e r, t o p r e v e nt di v o r c e d sp o u s e s w h o r e c ei v e titl e t o p r o p e rt y
di v o r c e d e c r e e f r o m b ei n g c a u g ht i n t h e sit u ati o n K o n d a u r c r e at e d i n t hi s c a s e.

9

H a d K o n d a u r c o m pli e d wit h t h e C F P B’ s P oli ci e s a n d P r o c e d u r e s R ul e, w hi c h
t h e C F P B f o u n d t o b e a n i s s u e of si g nifi c a nt n ati o n al i m p o rt a n c e, P etiti o n e r w o ul d
h a v e at l e a st h a d t h e o p p o rt u nit y t o p r ot e ct h e r h o m e f r o m K o n d a u r’ s o n e r o u s a n d
u n r e a s o n a bl e c o n d u c t. In r ef u si n g t o c o m m u ni c at e wit h P etiti o n e r i n vi ol ati o n of
C F P B B ull eti n 2 0 1 3 -1 2 w hil e si m ult a n e o u sl y ci r c u m v e nti n g P etiti o n e r’ s d u e p r o c e s s
ri g ht s t h r o u g h

Mi c hi g a n’ s f o r e cl o s u r e b y a d v e rti s e m e nt st at ut e f u rt h e r d e n i e d

P etiti o n e r t h e a n y m e a ni n gf ul o p p o rt u nit y t o b e h e a r d a n d p r ej u di c e d h e r a bilit y t o
h a v e h e r titl e i nt e r e st r e vi e w e d i n a m e a ni n gf ul w a y b ef o r e s h e w a s d e p ri v e d of t h e
P r o p e rt y.

1 2 C F R § 1 0 2 4. 3 1 p r o vi d e s: S u c c e s s o r i n i nt e r e st m e a n s a p e r s o n t o w h o m a n o w n e r s hi p i nt e r e st
i n a p r o p e rt y s e c u ri n g a m o rt g a g e l o a n s u bj e ct t o t hi s s u b p a rt i s t r a n sf e r r e d f r o m b o r r o w e r, p r o vi d e d
t h at t h e t r a n sf e r i s:
9

( 1)
( 2)
( 3)
( 4)
( 5)

A
t
A
A
A
a
s
A
w

t r a n sf e r b y d e vi s e, d e s c e nt, o r o p e r ati o n of l a w o n t h e d e at h of a j oi nt t e n a nt o r t e n a nt b y
h e e nti r et y;
t r a n sf e r t o a r el ati v e r e s ulti n g f r o m t h e d e at h of a b o r r o w e r;
t r a n sf e r w h e r e s p o u s e s o r c hil d r e n of t h e b o r r o w e r b e c o m e a n o w n e r of t h e p r o p e rt y’
t r a n sf e r r e s ul ti n g f r o m a d e c r e e of a di s s ol u ti o n of m a r ri a g e, l e g al s e p a r a ti o n
g r e e m e n t, o r f r o m a n i n ci d e n t al p r o p e r t y s e t tl e m e n t a g r e e m e n t, b y w hi c h t h e
p o u s e of t h e b o r r o w e r b e c o m e s a n o w n e r of t h e p r o p e r t y ; o r
t r a n sf e r i nt o a n i n t e r vi v o s t r u st i n w hi c h t h e b o r r o w e r i s a n d r e m ai n s a b e n efi ci a r y a n d
hi c h d o e s n ot r el at e t o a t r a n sf e r of ri g ht s of o c c u p a n c y i n t h e p r o p e rt y. [ E m p h a si s a d d e d]

'I

24
H a d a n y of t h e c o urt.' R b el o w A et a si d e K o n d a ur' s A u g u st 2 5, 2 0 1 6 s h eriff s s al e,

K o n d a ur' s m ort g a g e w o ul d h a v o b e e n r ei n st at e d b y o p er ati o n of l a w a n d K o n d a ur
w o ul d h a v e b e e n l eg all y r e q uir e d t o c o m m u ni c at e wit h P etiti o n er, a s a s u c c e s s or i n
i nte r e st, t o r e s ol v e t h e u n d erl yi n g i s s u e s t h at l e d t o t h e all e g e d m ort g a g e d ef a ult.
T h e n P etiti o n er w o ul d h a v e h a d a m e a ni n gf ul

o p p ort u nit y t o pr e s er v e h er titl e

i nt er e st i n t h e Pr o p ert y a n d K o n d a ur w o ul d h a v e r et ai n e d it s ri g ht t o fil e a j u di ci al
a cti o n t o f or e cl os e t h e pr o p ert y.

C O N C L U SI O N A N D P R A Y E R F O R R E L I E F
A b s e nt t hi s C o urt' s i nt er v e nti o n, u n s cr u p ul o u s s er vi c er s a n d t h e st at e of
Mi c hi g a n will b e at li b ert y t o d e pri v e U nit e d St at e s citi z e n s of s u b st a nti al pr o p ert y
i nt er e st s wit h o ut d u e pr o c e s s of l a w, t h er e b y a bri d gi n g t h e ri g ht s a n d i m m u niti e s of
s ai d citi z e n s.
T hi s C o urt s h o ul d gr a nt c erti or ari t o r e vi e w t h e Mi c hi g a n

S u pr e m e C o urt' s

j u d g m e nt d e n yi n g r e vi e w of t h e n ati o n all y si g nifi c a nt a n d c o n stit uti o n al i s s u e s s et
o ut i n t hi s c a s e.
M a y 2 1, 2 0 2 0

Cijj
1 N. H o p ki n s
C o u n s el of R e c or d
M e m b er, S u pr e m e C o urt B ar
P. O. B o x 2 1 4 1
R o y al O a k, MI 4 8 0 6 8
( 2 4 8) 3 4 5- 3 8 3 3
c h o p ki n sj d @ o utl o o k. c o m

24

